Case: 19-2671

Document: 003113353842

Page: 1

Date Filed: 09/20/2019

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 19-2671
Hasan Shareef v. Moore, et al
(U.S. District Court No.: 2-18-cv-01494)
ORDER
Pursuant to Fed. R. App. P. 3(a) and 3rd Cir. LAR 3.3 and Misc. 107.1(a), it is
ORDERED that the above-captioned case is hereby dismissed for failure to
timely prosecute insofar as appellant failed to pay the requisite fee as directed. It is
FURTHER ORDERED that a certified copy of this order be issued in lieu of a
formal mandate.

For the Court,
s/ Patricia S. Dodszuweit
Clerk
Dated: September 20, 2019
JK7cc: Martha Gale, Esq.
Marie M. Jones, Esq.
Mr. Joshua Lewis,
Hasan Shareef,

A True Copy;y<:>

h'.O*

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case: 19-2884

Document: 003113370840

Page: 1

Date Filed: 10/09/2019

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
No. 19-2884
Hasan Shareef v. Moore, et al
(U.S. District Court No.: 2-18-cv-01494)
ORDER
Pursuant to Fed. R. App. P. 3(a) and 3rd Cir. LAR 3.3 and Misc. 107.1(a), it is
ORDERED that the above-captioned case is hereby dismissed for failure to
timely prosecute insofar as appellant failed to pay the requisite fee as directed. It is
FURTHER ORDERED that a certified copy of this order be issued in lieu of a
formal mandate.

For the Court,
s/ Patricia S. Dodszuweit
Clerk
Dated: October 09, 2019
JK/cc: Martha Gale, Esq.
Marie M. Jones, Esq.
Mr. Joshua Lewis,
Hasan Shareef,

V.*1

(fmhf'
y.

A True Copy/0

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case: 19-2793

Document: 003113426319

Page: 1

Date Filed: 12/06/2019

December 4, 2019
October 31, 2019
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

* AMENDED BLD-029

No. 19-2793
HASAN SHAREEF, Appellant
v.
CAPTAIN MOORE, ET AL.
(W.D. Pa. Civ. No. 18-cv-01494)
Present:

AMBRO, GREENAWAY, JR. and BIBAS, Circuit Judges
Submitted are:

(1)

By the Clerk for possible dismissal due to a jurisdictional defect;

(2)

By the Clerk for possible dismissal pursuant to 28 U.S.C. § 1915(e)(2)(B)
or possible summary action pursuant to 3d Cir. L.A.R. 27.4 and I.O.P. 10.6;

(3)

Appellant’s jurisdictional response;

(4)

Appellant’s motion entitled “Motion for a Definite Statement Denied by
MDJ Lisa Pupo”;

(5)

Appellant’s motion entitled “Permission to Amended Complaints”;

(6)

Appellant’s motion for appointment of counsel;

(7)

Appellant’s motion entitled “Judgment by Default”;

(8)

Appellees’ response to Appellant’s Motion “Judgment by Default”

*(9)

Appellant’s second motion for appointment of counsel
in the above-captioned case.
Respectfully,
Clerk

(Continued)

Case: 19-2793

Document: 003113426319

Page: 2

Date Filed: 12/06/2019

December 4, 2019
October 31, 2019

* AMENDED BLD-029
Page 2
Hasan Shareef, Aplt v. Captain Moore, et al.
C.A. No. 19-2793

ORDER
This Court has jurisdiction of appeals from final decisions of the District Courts. 28 U.S.C.
§ 1291. Typically, a final order is one that ends the litigation as to all claims and all parties,
leaving nothing for the court to do but execute the judgment. See Papotto v. Hartford Life
& Accident Ins. Co.. 731 F.3d 265, 269 (3d Cir. 2013). Appellant seeks review of the
District Court’s decision to decline to appoint him counsel. An order denying a motion for
appointment of counsel may be reviewed only on appeal from the final judgment entered
in the case. Smith-Bey v. Petsock. 741 F.2d 22, 26 (3d Cir. 1984). As such a judgment has
yet to be entered here, this appeal is dismissed for lack ofjurisdiction. Appellant’s motions
for appointment of counsel are denied. See Tabron v. Grace, 6F.3d 147, 155-56 (3d Cir.
1993). To the extent that Appellant’s other filings request relief from this Court, they are
also denied.

By the Court,
s/Thomas L. Ambro
Circuit Judge
Dated: December 6, 2019
Lmr/cc: Hasan Shareef
Marie M. Jones
Martha Gale

s' •

A True Copy:''0 Ajf.f !'v*>

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 1 of 18

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

HASAN SHAREEF,
Plaintiff,
v.
CAPTAIN MOORE, WARDEN
DEMORE, ASST. WARDEN
FEMALE, SGT. BLUMMING,
CAPTAIN ZENTS, SGT. WAGNER,
WARDEN SNEDDON, MICHAEL
SCUILLIO, JEFFREY KENGERSKI,
_ -MARK BOWMAN, MAJOR
BATSTER, DA OFFICE, WILLIAM
FULLERTON, and OFFICER BRIAN
PALKO,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 18 - 1494

Magistrate Judge Lisa Pupo Lenihan
l
ECFNos. 96, 128, 131, 134, 170

MEMORANDUM OPINION AND ORDER
Currently pending before the Court are Motions to Dismiss filed by the following
Defendants: (1) Batster, Blumming, Bowman, DeMore, Female, Kengerski, Moore, Scuillio,
Sneddon, Wagner and Zents (collectively “Butler County Prison Defendants”) (ECF No. 96); (2)
DA Office (“Butler County District Attorney’s Office”) (ECF No. 128); (3) Officer Brian Palko
(“Officer Palko”) (ECF No. 131); and (4) William Fullerton (“Judge Fullerton”) (ECF No. 134).
Additionally, Plaintiff has filed a Motion for Summary Judgment. (ECF No. 170.) For the
following reasons, the Motions to Dismiss will be granted only to the extent they seek dismissal
1

<5

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 2 of 18

for Plaintiffs failure to state a claim upon which relief may be granted; and Plaintiff s Motion
for Summary Judgment will be denied.
A. Standard of Review
The United States Court of Appeals for the Third Circuit summarized the standard to be
applied in deciding motions to dismiss filed pursuant to Rule 12(b)(6):
Under the “notice pleading” standard embodied in Rule 8 of the
Federal Rules of Civil Procedure, a plaintiff must come forward
with “a short and plain statement of the claim showing that the
pleader is entitled to relief.” As explicated in Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009), a claimant must state a “plausible” claim for
relief, and “[a] claim has facial plausibility when the pleaded
factual content allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Although
“[f]actual allegations must be enough to raise a right to relief
above the speculative level,” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007), a plaintiff “need only put forth allegations
that raise a reasonable expectation that discovery will reveal
evidence of the necessary element.” Fowler, 578 F.3d at 213 *
(quotation marks and citations omitted); see also Covington v. Inf 1
Ass'n of Approved Basketball Officials, 710 F.3d 114, 117-18 (3d
Cir. 2013).
Thompson v. Real Estate Mortg. Network. 748 F.3d 142, 147 (3d Cir. 2014). a
When considering pro se pleadings, a court must employ less stringent standards than
when judging the work product of an attorney. Haines v. Kerner, 404 U.S. 519, 520 (1972).
When presented with a pro se complaint, the court should construe the complaint liberally and
draw fair inferences from what is not alleged as well as from what is alleged. Dluhos. v.
Itrasberg. 321 F.3d 365, 369 (3d Cir. 2003). In a § 1983 action, the court must “apply the
applicable law, irrespective of whether the pro se litigant has mentioned it by name.” Higgins jl
.ever, 293 F.3d 683, 688 (3d Cir. 2002) (quoting Holley v. Dep’t of Veteran Affairs, 165 F.3d
244, 247-48 (3d Cir. 1999)). See also Nami v. Fauver, 82 F.3d 63, 65 (3d Cir. 1996) (“Since this
2

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 3 of 18

is a § 1983 action, the [pro se] plaintiffs are entitled to relief if their complaint sufficiently
alleges deprivation of any right secured by the Constitution.”). Notwithstanding this liberality,
pro se litigants are not relieved of their obligation to allege sufficient facts to support a
cognizable legal claim. See, e.g.. Taylor v. Books A Million. Inc.. 296 F.3d 376, 378 (5th Cir. *
2002); Riddle v. Mondragon. 83 F.3d 1197, 1202 (10th Cir. 1996).
B. Discussion
Plaintiffs Amended Complaint is far from a model of clarity. That said, Plaintiff was
given multiple opportunities to amend his complaint and provided with instructions on how to
draft a proper complaint. See ECF Nos. 8, 20, 31, 48. Despite this, Plaintiff s attempts at
amending over the course of an entire year were non-compliant, and, on October 3, 2019, the
Court entered an order notifying the parties that it would proceed with the Amended Complaint
that Plaintiff filed on March 12, 2019. See ECF No. 87. Notwithstanding the Amended
Complaint’s numerous pleading deficiencies, the Court is cognizant of Plaintiff spro se status
and the Supreme Court’s instructions that pro se individuals must be accorded substantial
deference and liberality. See Haines. 404 U.S. at 520. Therefore, to the extent that his
allegations are discemable, the Court will construe them in a way that permits Plaintiff s claims
to be considered within the proper legal framework. See Stone v. Harry. 364 F.3d 912, 915 (8th
Cir. 2004).
1. Butler Countv Prison Defendants
Although Plaintiff does not identify the specific claims he is bringing against the Butler
County Prison Defendants, the only thing that is clear from the Amended Complaint is that his
claims (whatever they may be) are based on the Defendants’ involvement in the confiscation of
his property when he was processed into the Butler County Prison on August 20, 2018. Indeed,
3

•

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 4 of 18

Plaintiff states that they refused to give back his property, falsified official documents by saying
that his property was contraband because it had “spice” on it, and then destroyed his property.
As far as the Court can tell, it appears that this property may have consisted of legal work,
jewelry and receipts.
Fortunately, in the early stages of this case Plaintiff filed a document that helps to clarify,
and provide a bit of context, as to what occurred in the Butler County Prison on August 20, 2018.
Said document is a response to Plaintiffs motion for return of property that his attorney, Armand
R. Cingolani, III, Esq., filed on his behalf in his criminal cases on September 25, 2018. (ECF
No. 5-2); see also Commonwealth v. Shareef. CP-10-CR-1714-2016 (Butler Cty. Ct. of Comm.
Pleas); Commonwealth v. Shareef. CP-10-CR-592-2018 (Butler Cty. Ct. of Comm. Pleas).
Although Plaintiff did not provide the Court with the actual motion for return of property itself, V ^
the response to the motion, which is dated November 20, 2018, indicates the following facts with
respect to the confiscation of Plaintiff s property:1
On August 14,2018, immediately prior to [Plaintiff]’s move from the Allegheny
County Jail to the [Butler County] Prison [(“Prison”)] six Prison employees were
exposed to an unknown substance, resulting in those six employees being
transferred to Butler Memorial Hospital for treatment. The Prison was placed on
lockdown status pending an investigation. During the investigation, the unknown
substance was discovered to be K2, a synthetic cannabinoid. While the exposure
method remains unknown it is believed that this substance was infiltrated into the
Prison via inmate mail or personal effects.
On August 20, 2018, [Plaintiff] was transported to the Prison from the Allegheny
County Jail. Captain Clyde Moore and Corrections Officer Mark Bowman
processed [Plaintiff] into the facility and started to search his property. While
searching [Plaintiff]’s property, both employees reported “they began to
experience burning and irritated skin and burning eyes.” These symptoms were

1 The factual assertions made in the response to Plaintiffs motion are set forth herein only to the
extent they provide context to and help clarify Plaintiff s claims since his allegations with respect
to what happened in his Amended Complaint are virtually incomprehensible.
4

p
'••dan*

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 5 of 18

similar to the symptoms the six prior employees experienced on August 14, 2018
when they were transported to Butler Memorial Hospital.
Captain Clyde Moore sealed the property in a secure black garbage bag and
placed the sealed property bag in his secure office for when [Plaintiff] would be
released from the Prison. Captain Moore’s and Correction Officer Bowman’s
symptoms subsided to where medical treatment was not required. At that time,
Captain Moore explained to [Plaintiff] his property was deemed bio-hazard and to
contact his attorney to send in any legal work to the facility. . . .
On August 29, 2018 the Pennsylvania Department of Corrections (“DOC”) placed
the entire state prison system on an extended lockdown to combat the numerous
number of DOC employees becoming sick while being exposed to an “unknown
substance.” Multiple policy changes were enacted for the DOC varying from
inmate mail being sent off site and photocopied, legal mail opening practices, etc.
During the week of September 16-20, Warden DeMore spoke with [Plaintiff]
about his property. The Warden explained to [Plaintiff] that there were concerns
his property was contaminated and was deemed bio-hazard but was stored on-site
for when he was released from the Prison custody. Warden, Joe DeMore,
reaffirmed that Captain Moore told [Plaintiff] to have his attorney send any
pertinent legal mail to the facility. Warden DeMore explained in detail that the
jail could have sent his bagged up property out to be tested for K2 which would
result in all his property being deemed bio-hazard and consequently could be
destroyed by the haz-mat team/testing agency. [Plaintiff] thanked Warden
DeMore for not sending his property out to be tested and said he understood.
A letter was sent to the Prison on October 3, 2018 from [Plaintiff]’s attorney,
Armand Cingolani, regarding [Plaintiff]’s property. On October 4, 2018 at
approximately 1155 hours, Deputy Warden Beau Sneddon (“D.W. Sneddon )
spoke to Attorney Cingolani on the telephone about [Plaintiff]’s property.
Attorney Cingolani indicated he was “under the impression [Plaintiff]’s property
was destroyed or lost.” D.W. Sneddon offered Attorney Cingolani the option of
having [Plaintiff] sign a release of property form and that Attorney Cingolani
could take possession of his client’s property. Attorney Cingolani refused this
option... .
(ECF No. 5-2, pp. 1-3.) The docket sheets for Plaintiffs criminal cases indicate that Plaintiff s '
motion for return of his property was granted by the trial court on November 26, 2018, and while
it is unknown what actually happened to Plaintiff s property, Plaintiff complained in his original
Complaint (and his Amended Complaint) that his property was destroyed. Interestingly,
5

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 6 of 18

Plaintiffs original Complaint is dated prior to the aforementioned response to his motion
wherein it was indicated by officials at the Butler County Prison that his property was not
destroyed but rather being held pending his release since Plaintiff refused to execute an
authorization for release of his property to his attorney or other designee. Notwithstanding this
apparent discrepancy, for purposes of deciding the pending Motion to Dismiss for failure to state
a claim, this Court must accept as true Plaintiffs allegation that his property was destroyed; but,
even assuming that was the case,2 Plaintiff has failed to state a claim upon which relief may be
granted.
a. Due Process
To the extent Plaintiff asserts liability on the part of the Butler County Prison Defendants
for the alleged confiscation/destruction of his property as a result of its alleged contamination
with K2, the United States Supreme Court has held that the concept of “due process” requires
some kind of hearing before the state can deprive a person of a protected interest. Zinermon v.
« Burch. 494 U.S. 113, 126 (1990) (collecting cases). However, in cases of random and
unauthorized deprivations of property, the State cannot predict when the loss will occur and,
therefore, is unable to provide a meaningful hearing before the deprivation takes place. In
Q\

I

Parratt v. Tavlor. 451 U.S. 527 (1981), the Supreme Court determined that, with respect to
negligent, random and unauthorized acts by state actors that result in the loss of a protected
interest, a plaintiff does not suffer a violation of procedural due process if he or she has an
adequate post-deprivation remedy. In Hudson v. Palmer. 468 U.S. 517 (1984), the Supreme
Court extended the rule in Parratt to apply to intentional acts by state actors.

2 Notably, Plaintiff does not state that Defendants failed to comply with the trial court’s order I
granting the motion for return of his property.
6

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 7 of 18

The Third Circuit Court of Appeals has held that a prison’s grievance procedure provides
an adequate post-deprivation remedy, see e.g., Tillman v. Lebanon County Corr. Fac., 121 F.3d
410, 422 (3d Cir. 2000), and that the existence of this post-deprivation remedy forecloses any
due process claim, Austin v. Lehman, 893 F. Supp. 448, 454 (E.D. Pa. 1995), even if an inmate
is dissatisfied with the result of the process. Iselev v. Horn. 1996 WL 510090, at *6 (E.D. Pa.
1996). In Monroe v. Beard, 536 F.3d 198 (3d Cir. 2008), which dealt with the intentional
confiscation of inmate property pursuant to official prison policy, inmates objected to a
Department of Corrections policy that allowed the confiscation of UCC-related material and
forms, which inmates had used to file fraudulent liens and judgments against officials. The
Third Circuit held that the failure to give the inmate prior notice of the seizure of these materials
did not violate their due process rights. Id. at 210. It also found that the Department afforded the
inmates a meaningful post-deprivation remedy in the form of the inmate grievance and a special
process for objecting to the seizures. Id- The Court stated: “Although the plaintiffs allege that
the defendants have not adhered to their own procedure, they have not shown that this post­
deprivation procedure was not meaningful.” Id. Likewise, in Tillman, the Third Circuit held
that the plaintiff inmate had an adequate post-deprivation remedy in the form of the prison
grievance program. 221 F.3d at 422. «
Similarly, in this case, the Butler County Prison Defendants were not obligated to give
Plaintiff prior notice of the seizure of his property. Plaintiff admits that he was notified why his
property was confiscated (or destroyed), specifically because it was contaminated with spice ,
and while he may disagree with that designation, he had a meaningful post-deprivation remedy
with regard to the confiscation/destruction of his property through the Butler County Prison’s
administrative grievance procedure, and through which he admits he sought the return of his
7

t

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 8 of 18

property. See ECF No. 15, p.3. Plaintiff also had another meaningful post-deprivation remedy
available to him through a tort action that he could have filed in state court. See Gilmore v.

*

Jeffes. 675 F.Supp. 219, 221 (M.D. Pa. 1987) (citing 42 Pa. C.S.A. § 8522(b)(3)). Most
importantly, however, Plaintiff was able to move in his criminal action for the return of his
property and he fails to explain how this post-deprivation remedy was inadequate given that
public records show that he was successful. See Revell v. Port Authority of New York, New *
Jersey, 598 F.3d 128, 139 (3d Cir. 2010) (“[Plaintiff] has failed to explain why New Jersey’s
state procedures to recover wrongfully seized property, such as the ability to move in the
criminal action for return of his property or the ability to file a separate action for a writ of
0 replevin, are insufficient.”). Consequently, assuming Plaintiff had a protected interest in the
items that were allegedly confiscated and/or destroyed, his allegations fail to state a claim for a
' procedural due process violation.
Additionally, Plaintiffs allegations also fail to state a claim for a substantive due process
violation as the confiscation/destruction of his property simply does not shock this Court’s
o. conscience. See, e.py United Artists Theatre Circuit. Inc, v. Township of Warrington, Pa., 316
F.3d 392, 399-400 (3d Cir. 2003) (“our cases have repeatedly acknowledged that executive
action violates substantive due process only when it shocks the conscience.”). See also Moore v.
<1 Gluckstem. 548 F. Supp. 165, 167 (D. Md. 1982) (“At worst, plaintiff alleges that the items were
stolen by the guards. While such action by prison guards, if proven, would clearly be wrongful,
there is nothing about the alleged incidents that could conceivably ‘shock[] the conscience’ of®
the court. Therefore, the complaint cannot be read as alleging a violation of substantive due
process rights.”). Accordingly, Plaintiffs due process claims against the Butler County Prison
Defendants stemming from the confiscation and/or destruction of his property will be dismissed.
8

§

$

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 9 of 18

b. Access to Courts
Plaintiff also alleges that he “lost [his] trial” because of the confiscation and subsequent
destruction of his legal work after he was processed into the Butler County Prison on August 20,
2018. See ECF No. 133, p. 1. Plaintiffs legal work apparently consisted of legal research and
“notes” to assist his lawyer. Id. atpp.1-2.
To establish a cognizable access-to-courts-claim, as it appears Plaintiff is attempting to
do here, a prisoner must demonstrate that the denial of access caused him to suffer an actual
(.

injury. Lewis v. Casey, 518 U.S. 343, 351 (1996). An actual injury occurs when the prisoner is
prevented from pursuing or has lost the opportunity to pursue a “nonfrivolous” and “arguable”
claim. Christopher v. Harbury. 536 U.S. 403, 415 (2002). The prisoner must describe any such
lost claims in his complaint. Id.

podi

w

As an initial matter, Plaintiff fails to specify two important pieces of information. First,
he does not identify the criminal case number for the trial that he “lost,” and second, he does not
specify what was contained within his legal research and notes that were confiscated and
subsequently destroyed and why he believes this information would have lead to a different
result for him at trial. Notwithstanding his failure to identify his criminal case number, the
Court takes judicial notice of the public dockets of the Pennsylvania state courts, and
specifically, the docket sheet for Commonwealth v. Shareef CP-10-CR-1714-2016 (Butler Cty.
Ct. of Comm. Pleas), which shows that Plaintiff was found guilty by a jury of one count of
Possession of a Firearm Prohibited on October 22, 2018. This appears to be the criminal case
which Plaintiff refers to since it was his only active criminal case at the time for which he was
later found guilty.

9

-4-

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 10 of 18

Additionally, notwithstanding his failure to specify exactly what was contained in the
legal research and/or notes that were allegedly destroyed, and why he believes that being without
that information at trial lead to his conviction, Plaintiff cannot state an access-to-courts-claim
because in this case his access to courts was satisfied as a matter of law by virtue of him being
represented by counsel at his criminal trial. See Lamp v, Iowa. 122 F.3d 1100, 1106 (8th
Cir.1997) (“For, once the State has provided a petitioner with an attorney in postconviction
proceedings, it has provided him with the ‘capability of bringing contemplated challenges to
sentences or conditions of confinement before the courts.’”) (quoting Lewis v. Casey, 518 U.S.
343, 356 (1996)); Schrier v. Halford. 60 F.3d 1309, 1313-1314 (8th Cir.1995) (having appointed
counsel is one way in which state can shoulder its burden of assuring access to the courts); Annis
v. Favette Countv Jail. NO. CIV.A. 07-1628, 2008 WL 763735, at *1 (W.D. Pa. Mar 20, 2008);
Sanders v. Rockland County Correctional Facility. No. 94 Civ. 3691, 1995 WL 479445, at *2
(S.D.N.Y. Aug. 14, 1995) (“By the appointment of counsel, plaintiff was afforded meaningful
access to the courts in his trial.”); Williams v. Vaughn, No. 90-5617, 1991 WL 34429, at *4
(E.D. Pa. March 12, 1991) (“Thus, [plaintiff-inmate] Williams was not actually injured by any
inability to gain access to the law library since he ultimately obtained representation.”).
For example, in Rogers v. Thomas. No. 94-4692, 1995 WL 70548, at *2 (E.D. Pa. Feb.
17, 1995), aff’d, 65 F.3d 165 (3d Cir. 1995) (Table), the prisoner therein claimed a denial of
access to courts as does Plaintiff herein. In Rogers, the prisoner’s legal papers relating to the
appeal of his criminal conviction were seized by a corrections officer. “The legal materials at
issue consisted of ‘legal research notes, court orders, affidavits, letters, and pleadings.’” Id- at
* 1. The plaintiff in Rogers was represented by counsel in his direct appeal, much like Plaintiff
herein was represented by counsel in his criminal trial proceedings. The plaintiff in Rogers
10

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 11 of 18

claimed the confiscation of his legal papers violated his right to access to the court, and in
rejecting this claim, the court held that despite the fact that the inmate’s legal papers were taken
by prison officials, “plaintiff was not denied access to the courts because he was represented by
court-appointed counsel, during the entire pendency of the appeal to which the legal papers
related. Thus, plaintiff was actually provided with, not denied, legal assistance.” Id. at *2. This
rule of law that providing prisoners with counsel fulfills their right of access to the courts makes

<w&
vj~

eminent sense in light of Bounds v. Smith. 430 U.S. 817 (1977), one of the landmark cases in
right of access jurisprudence, which declared that inmates’ right of access to the courts may be
satisfied by “providing prisoners with adequate law libraries or adequate assistance from persons
trained in the law.” Id. at 828 (emphasis added). Accordingly, as Plaintiff has not identified
anything in the confiscated papers that would have changed the outcome of his trial, and as he
had counsel for the criminal proceedings which he claims his alleged confiscated/destroyed legal
research related, he fails to state a claim for denial of access to the courts as a matter of law.3
2. Butler County District Attorney’s Office
The Court first notes that it is unclear whether Plaintiff intended the Butler County
District Attorney’s Office to be a named defendant in this action as it is not identified as a

01(1 Uftt/J

3 Even if Plaintiff would have refused court appointed counsel and would have chosen to proceed
pro se in his criminal case, the fact that he had been offered legal assistance and refused such x
assistance would negate any claim of denial of access to the courts. See, e.g., Degrate v.
Godwin. 84 F.3d 768, 769 (5th Cir. 1996) (per curiam) (where pretrial detainee was offered state
appointed counsel but he subsequently rejected such counsel in order to proceed pro se, state did
not violate detainee’s right of access to the courts by hindering his access to a law library;
“having rejected the assistance of court-appointed counsel, [detainee] Degrate had no
constitutional right to access a law library in preparing the pro se defense of his criminal trial.”);
Love v. Summit. County. 776 F.2d 908, 914 (10th Cir. 1985), cert, denied, 479 U.S. 814 (1986)
(state is entitled to choose whether it will meet its obligation to provide access to the courts by
providing an adequate law library or by providing legal assistance in the form of an attorney).
11

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 12 of 18

defendant in Plaintiff s Amended Complaint. See ECF No. 15. Instead, it appears that Plaintiff
named it as a defendant in his initial Complaint, see ECF No. 9, p.l, and for some reason it was
not terminated from the docket upon Plaintiff s filing of the Amended Complaint. Indeed, in its
Motion to Dismiss the Butler County District Attorney’s Office states that it has “no rational
connection to anything mentioned in the Amended Complaint” (ECF No. 129, p.3) and this
Court agrees. Furthermore, a district attorney’s office is not a “person” that can be sued within
the meaning of § 1983. See Reitz v. County of Bucks, 125 F.3d 139, 148 (3d Cir. 1997)
(affirming district court’s grant of summary judgment in favor of defendant district attorney’s
office because it is not a legal entity for purposes of § 1983 liability). See also Lasko v.
Leechburg Police Dep’t, No. 12-1421, 2013, WL 2404145, at *4 (W.D. Pa. May 31, 2013)
(dismissing with prejudice the claims against the District Attorney’s Office because it is not a
“person” for purposes of § 1983 liability). Therefore, Plaintiffs claims against the Butler
County District Attorney’s Office will be dismissed with prejudice.
3. Officer Palko
Although Plaintiff has put forth no coherent al legations against Officer Palko, he does use
the term “false arrest” so the Court will assume that he believes that his arrest by Officer Palko
on May 27, 2016 was unconstitutional. It appears, however, that such a claim is time-barred.
In detennining the length of the limitations period, the court first looks to state law, and,
under Pennsylvania law, die applicable limitations period for civil rights actions under 42 U.S.C.
§ 1983 is two years. See 42 Pa. C.S.A. § 5524. Next, the court looks to federal law to determine
the time at which a § 1983 claim accrues, and, in Wallace v. Kato, 549 U.S. 384, 397 (2007), the
United States Supreme Court held that “the statute of limitations upon a § 1983 claim seeking
damages for a false arrest in violation of the Fourth Amendment, where the arrest is followed by
12

u\

v\

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 13 of 18

criminal proceedings, begins to run at the time the claimant becomes detained pursuant to legal
process.”
Here, Plaintiff states, and the docket sheet confirms that Plaintiff was arrested on May 27,
2016, and he appeared for his preliminary arraignment later that same day. See Commonwealth
v. Shareef. MJ-50305-CR-338-2016. Since this occurred more than two years before he initiated
the instant case, which at the earliest was on October 20, 2018, his claim is time-barred.
Accordingly, Plaintiffs false arrest claim will be dismissed with prejudice.
4. Judge Fullerton
Plaintiffs claims against Judge Fullerton are unclear but it appears he complains that
Judge Fullerton was not a “neutral” magistrate judge because he either did (or maybe did not)
issue the warrant for Plaintiffs arrest. In this regard, the Court takes judicial notice that Judge
Fullerton is a judge of Magisterial District Court 32-1-21, which is an entity of the Unified
Judicial System of Pennsylvania. See 42 Pa. C.S.A. § 301(9).
As correctly noted by Judge Fullerton in his Motion to Dismiss, the Eleventh Amendment
bars suit against him to the extent he is being sued in his official capacity as a magisterial district
court judge for the Commonwealth of Pennsylvania. In this regard, “a suit against a state official
in his or her official capacity is not a suit against the official but rather is a suit against the
official’s office. As such, it is no different from a suit against the State itself.” Will v. Mich.
Den’t of State Police. 491 U.S. 58, 71 (1989) (internal citation omitted). Here, a claim against
Judge Fullerton in his official capacity is really a claim against the Magisterial District Court
over which he presides; an entity of the Commonwealth of Pennsylvania that is entitled to
Eleventh Amendment immunity. See PA. CONST. Art. V, §§ 1, 7; 42 Pa. C.S. § 1511. See also

13

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 14 of 18

Benn v. First Judicial Dist. of Pa.. 426 F.3d 233 (3d Cir. 2005) (Holding that Pennsylvania’s
First Judicial District was “state entity” entitled to Eleventh Amendment immunity).
Eleventh Amendment immunity may be lost only in one of two ways: (1) if the
Commonwealth waives its immunity; or (2) if Congress abrogates the States’ immunity pursuant
to a valid exercise of its power. See College Sav. Bank v. Florida Prepaid Postsecondary Ed.

X
Expense Bd., 527 U.S. 666, 670 (1999); Atascadero State Hosp. v. Scanlon, 473 U.S. 234, 240-4
(1985). Additionally, a person seeking purely prospective relief against state officials for
ongoing violations of federal law may sue under the “legal fiction” of Ex parte Young, 209 U.S.
123, 159-60 (1908), despite the text of the Eleventh Amendment. Alden v. Maine, 527 U.S. 706,
757 (1999).
No exceptions to the Eleventh Amendment immunity are applicable here. By statute, the
Commonwealth of Pennsylvania has specifically withheld its consent to be sued. See 42 Pa.
C.S.A. § 8521(b); 1 Pa. C.S.A. § 2310; see also Laskaris v. Thornburgh, 661 F.2d23, 25 (3d Cir.
1981). Additionally, Congress has not expressly abrogated Pennsylvania’s Eleventh Amendment
immunity from civil rights suits for damages. See, e.g., Will, 491 U.S. at 66 (“Section 1983
provides a federal forum to remedy many deprivations of civil liberties, but it does not provide a
federal forum for litigants who seek a remedy against a State for alleged deprivations of civil
liberties.”); Quern v. Jordan. 440 U.S. 332, 341 (1979); Boykin v. Bloomsburg Univ. of Pa., 893
F. Supp. 378 (M.D. Pa. 1995) (holding that States’ immunity has not been abrogated for actions
brought under §§ 1981, 1983, 1985, and 1986), affd, 91 F.3d 122 (3d Cir. 1996). Finally,
Plaintiff does not seek prospective relief against Judge Fullerton, but compensatory damages
instead. As such, Eleventh Amendment immunity bars any claim he may have against Judge
Fullerton in his official capacity.
14

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 15 of 18

Additionally, Judge Fullerton is entitled to judicial immunity for all acts taken in his
judicial capacity, Figueroa v. Blackburn, 208 F.3d 435, 440 (3d Cir. 2000) (citing Mireles v.
Waco, 502 U.S. 9, 11 (1991) (per curiam)), “even if his exercise of authority is flawed by the
commission of grave procedural errors,” Stump v. Sparkman. 435 U.S. 349, 359 (1978). Indeed,
such immunity can be overcome only where a judge’s acts are nonjudicial in nature,4 or where
such acts, while judicial in nature, are “taken in the complete absence of all jurisdiction.”
Mireles. 502 U.S. at 12.
Here, Plaintiff is seeking compensatory damages against Judge Fullerton and the
allegations against him, to the extent they can be discerned, are directly connected to the actions
he took as a magistrate judge and do not suggest that he was acting in the “clear absence of all
jurisdiction.” Therefore, judicial immunity applies to bar Plaintiff s claims.5
C. Amendment of Complaint
The court must allow amendment by the plaintiff in civil rights cases brought under §
1983 before dismissing pursuant to Rule 12(b)(6), irrespective of whether it is requested, unless
doing so would be “inequitable or futile.” Fletcher-Harlee Corp. v. Pote Concrete Contractors,
Inc.. 482 F.3d 247, 251 (3d Cir. 2007); see also Alston v. Parker. 363 F.3d 229, 235 (3d Cir.

4 “Factors which determine whether an act is a ‘judicial act’ ‘relate to the nature of the act itself,
i.e., whether it is a function normally performed by a judge, and to the expectation of the parties,
i.e., whether they dealt with the judge in his judicial capacity. ’” Figueroa, 208 F.3d at 443
(quoting Stump. 435 U.S. at 362).
5 Even though Plaintiff clearly states that he seeking compensatory damages against Judge
Fullerton, it is worth noting that his claims would also be barred even if he were seeking
*f prospective relief because he has not alleged that a declaratory decree was violated or that
•jr declaratory relief is unavailable. See e.g., L.B. v. Town of Chester. 232 F.Supp.2d 227, 238
^ (S.D.N.Y. 2002); Kamofer v. Scullin. 989 F.Supp. 194, 201-202 (N.D.N.Y. 1997); see also Jung
v. Pennsylvania, 2018 WL 3717213, at *4 (M.D. Pa. June 27, 2018); Steinberg v. Supreme Court
of Pennsylvania, 2009 WL 1684663, at *22 (W.D. Pa. June 10, 2009).
15

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 16 of 18

2004) (asserting that where a complaint is vulnerable to dismissal pursuant to 12(b)(6), the
district court must offer the opportunity to amend unless it would be inequitable or futile). While
the Court is cognizant of these holdings, it finds that allowing for amendment by Plaintiff would
be futile. A careful review of the record commands that Plaintiff, even garnering all the
liberalities that accompany his pro se status, fails to state any claims under § 1983 against the
Defendants for which relief may be granted. A separate order will issue.
Dated: March 25, 2020.

Lisa Pupo Lenihan
United States Magistrate Judge

Cc:

Hasan Shareef
NU0779
SCI Forest
P.O. Box 945
Marienville, PA 16239
Counsel of record
(Via CM/ECF electronic mail)

16

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 17 of 18

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA

HASAN SHAREEF,
Plaintiff,
v.
CAPTAIN MOORE, WARDEN
DEMORE, ASST. WARDEN
FEMALE, SGT. BLUMM1NG,
CAPTAIN ZENTS, SGT. WAGNER,
WARDEN SNEDDON, MICHAEL
SCUILLIO, JEFFREY KENGERSKI,
MARK BOWMAN, MAJOR
BATSTER, DA OFFICE, WILLIAM
FULLERTON, and OFFICER BRIAN
PALKO,
Defendants.

)
)
)
)
)
)
)
)
)
)

Civil Action No. 18 - 1494

Magistrate Judge Lisa Pupo Lenihan

)
)
)
)
)
)
)
)

ORDER
AND NOW, this 25th day of March, 2020,
IT IS HEREBY ORDERED that the Motion to Dismiss filed by the Butler County
Prison Defendants (ECF No. 96) is granted in part and denied in part. The Motion is granted to
the extent that it seeks dismissal for Plaintiffs failure to state a claim upon which relief may be
granted and it is denied as moot in all other respects. The claims against these Defendants are
dismissed with prejudice.
IT IS FURTHER ORDERED that the Motion to Dismiss filed by the Butler County
District Attorney’s Office (ECF No. 128) is granted and the claims against this Defendant are
dismissed with prejudice for Plaintiffs failure to state a claim upon which relief may be granted.
17

Case 2:18-cv-01494-LPL Document 180 Filed 03/25/20 Page 18 of 18

. $

IT IS FURTHER ORDERED that the Motion to Dismiss filed by Officer Brian Palko
(ECF No. 131) is granted and the false arrest claim against this Defendant is dismissed with
prejudice for failure to state a claim upon which relief may be granted because it is time-barred.
IT IS FURTHER ORDERED that the Motion to Dismiss filed by Judge Fullerton (ECF
No. 134) is granted and Plaintiffs claims against him are dismissed with prejudice for failure to
state a claim upon which relief may be granted.
IT IS FURTHER ORDERED that Plaintiffs Motion for Summary Judgment (ECF No.
170) is DENIED.
IT IS FURTHER ORDERED that the Clerk of Court is directed to mark this case
CLOSED
AND IT IS FURTHER ORDERED that pursuant to Rule 4(a)(1) of the Federal Rules
of Appellate Procedure, Plaintiff has thirty (30) days to file a notice of appeal as provided by
Rule 3 of the Federal Rules of Appellate Procedure.

Lisa Pupo Lenihan
United States Magistrate Judge

Cc:

Elasan Shareef
NU0779
SCI Forest
P.O. Box 945
Marienville, PA 16239
Counsel of record
(Via CM/ECF electronic mail)

18

/

i

Case: 19-2884

Document: 50

Page: 1

Date Filed: 06/25/2020

June 18, 2020
CLD-229
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 19-2884
HASAN SHAREEF, Appellant
VS.
CAPTAIN MOORE; ET AL.
(W.D. Pa. Civ. No. 2:18-cv-01494)
Present:

JORDAN, KRAUSE, and MATEY, Circuit Judges
Submitted are:
(1)

By the Clerk for possible dismissal due to a jurisdictional defect;
Appellant’s “Motion [for] Permission to [File]
(2)
Amended Complaints”;
Appellees’ Response to Appellant’s “Motion [for]
(3)
Permission to [File] Amended Complaints”;
(4)

Appellant’s Motion for Appointment of Counsel;

(5)

Appellant’s Motion to Reopen;

(6)

Appellant’s document in support of motion to reopen;

Appellant’s Motion to Proceed In Forma Pauperis
(filed Jan. 21, 2020);
(7)

Appellant’s Motion to Proceed In Forma Pauperis
(8)
(filed Jan. 22, 2020);
Appellant’s Motion to Proceed In Forma Pauperis
(9)
(filed Jan. 27, 2020);
(10) Appellant’s Motion for Leave to Accept Motion to
Reopen Out of Time (filed Feb. 3, 2020);

Case: 19-2884

Document: 50

Page: 2

Date Filed: 06/25/2020

(11) Appellees’ Response in Opposition to Motion for
Leave to Accept Motion to Reopen Out of Time;
(12) Appellant’s Motion for Leave to Accept Motion to
Reopen Out of Time (filed Feb. 20, 2020);
(13)

Appellant’s “Motion En Banc”;

(14)

Appellant’s “Motion for Clarification”;

(15)

Appellant’s “Motion for an Extension”;

(16)

Appellant’s “Motion for an Extension”; and

(17) Appellants’ “Motion [for] Failure to State a Claim
Upon Which Relief may be Granted”
in the above-captioned case.
Respectfully,
Clerk
ORDER
Appellant’s motion to reopen the appeal is denied. A motion to reopen an appeal
that has been dismissed for failure to prosecute “must be justified by the showing of good
cause and must be filed within 10 days of the date of dismissal.” 3d Cir. LAR 107.2(a).
Appellant’s motion to reopen was untimely filed, and he has failed to demonstrate good
cause to warrant reopening. We note that Appellant filed a new appeal (C.A. No. 20-1863)
from what appears to be the final order entered in the underlying case.

2

Case: 19-2884

Document: 50

Page: 3

Date Filed: 06/25/2020

By the Court,
s/ Paul B. Matey
Circuit Judge

Dated: June 25, 2020
JK/cc: Hasan Shareef
All Counsel of Record

. 3

